  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




The Effect of Financial Screening and Distinct
  Part Rules on Access to Nursing Facilities




                       JUNE GIBBS BROWN
                        Inspector General

                            JUNE 2000
                          OEI-02-99-00340
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:


REGION
                                              HEADQUARTERS

Jodi Nudelman, Project Leader
                       Susan Burbach, Program Specialist

Nancy Harrison
                                      Linda Moscoe

Natasha Besch

Lucille Cop

Judy Lin

Christi Macrina





   To obtain copies of this report, please call the New York Regional Office at 212 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                           EXECUTIVE SUMMARY

PURPOSE

          To assess the extent to which financial screening and distinct part rules limit access to
          nursing facilities for Medicare and Medicaid beneficiaries.

BACKGROUND

          The Health Care Financing Administration (HCFA) requested that the Office of Inspector
          General (OIG) conduct a study about nursing home certification and admissions practices
          that may limit access to care for Medicaid and Medicare beneficiaries. These practices are
          distinct part certification and financial screening.

          In recent years, HCFA and the Office of Civil Rights (OCR) have been alerted by nursing
          home advocacy groups and beneficiaries that nursing homes may be using financial
          screening and distinct part rules to limit access for Medicare and Medicaid applicants.
          Facilities can request financial information from beneficiaries as part of their admissions
          process and can designate a distinct part by certifying a specific number of their beds for
          Medicare and/or Medicaid. There is some concern, however, that facilities are using these
          practices to deny access to Medicare and Medicaid beneficiaries.

          To address these concerns, we interviewed State Long Term Care Ombudsmen, State
          Medicaid officials, a sample of hospital discharge planners, and a sample of nursing home
          administrators. We also contacted several oversight agencies about complaints they have
          received related to these issues. Additionally, we analyzed data from the National
          Ombudsman Reporting System (NORS) and the Online Survey Certification and
          Reporting System (OSCAR) to assess complaints and the nursing home bed supply.


FINDINGS

Distinct Part Certification

          Overall, distinct part rules do not appear to limit access for Medicaid or Medicare
          beneficiaries. Twenty-nine States allow nursing homes to certify a portion of their beds
          for Medicaid. The remaining 22 States have a “one bed, all beds” policy that requires
          nursing homes that participate in Medicaid to certify all of their beds for Medicaid.
          Irrespective of these rules, about 97 percent of all beds that are certified nationwide are
          for Medicaid. In addition, Medicaid officials report no significant problems with distinct
          part. Ombudsmen generally concur, although some express concerns.
                                                                     1
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
          Regarding Medicare, all but one State allow nursing homes to certify a portion of their
          beds for Medicare. However, access to Medicare beds does not appear to be a problem
          according to respondents and previous OIG studies.

Financial Screening

          Nursing facilities commonly request financial information as part of the admissions
          process. Ombudsmen, Medicaid officials, and nursing home administrators report that
          facilities commonly ask for financial information, often about a person’s assets, income,
          and insurance.

          When financial screening occurs, it primarily affects access for Medicaid
          beneficiaries. While no Medicaid officials and only eight ombudsmen report that
          Medicaid beneficiaries are “very often” denied access to a nursing home because of
          financial screening, one-third of discharge planners say that nursing homes refuse patients
          “very often” for financial reasons. Many discharge planners note that Medicaid patients
          are most likely to be affected by these practices.

Complaints

          Oversight agencies receive relatively few complaints about financial screening or
          distinct part practices. The Office of Civil Rights (OCR) and the OIG Hotline could
          document virtually no complaints about financial screening or distinct part practices.
          Ombudsmen from 24 States estimate receiving an average total of 339 complaints related
          to financial screening per year. Over two-thirds of these complaints come from 7 States.
          Regarding distinct part practices, ombudsmen in 20 States estimate receiving an average
          total of 334 complaints per year. Similarly, three-quarters of these complaints are from 6
          States. The total number of complaints represents less than one percent of all complaints
          reported by ombudsmen in a year.



CONCLUSION

          Distinct part rules do not appear to limit access for Medicaid or Medicare beneficiaries.
          Financial screening may cause access problems for some Medicaid beneficiaries, but these
          problems do not appear to be widespread. At this time, any potential effects of distinct
          part rules and financial screening are being tempered by a bed supply that generally
          exceeds demand and by State initiatives that promote access. The dynamics of the nursing
          home bed supply, however, could change in the future.




                                                                     2
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
          The Department can respond to these findings with a number of options.

          <	         It can do nothing new at this time and continue to monitor access and changes in
                     nursing home occupancy rates, as well as the factors that affect nursing home bed
                     supply and demand;

          <	         It can strengthen its oversight efforts by alerting survey and certification and
                     ombudsman staff to potential abuses and by using public service announcements to
                     alert consumers to common financial screening practices;

          <	         It can issue new regulations or legislation that eliminates Medicare distinct part
                     and/or prohibits financial screening; or

          <	         It can study the effects on access of the practices adopted by 23 States to promote
                     access to nursing facilities.



AGENCY COMMENTS

          We received comments on the draft report from the Health Care Financing Administration
          (HCFA), the Administration on Aging, and the Assistant Secretary for Planning and
          Evaluation (ASPE). The HCFA agreed with our recommendation to strengthen oversight
          and listed a number of steps they were taking to implement that recommendation.
          Additionally, at ASPE’s request we have forwarded a memorandum to HCFA containing a
          State-specific discussion of access. The ASPE also asked for a discussion of the variance
          in responses listed in Table 2. We believe the variance is due to perspective. While the
          State officials take a policy or oversight view of the problem, the discharge planners' view
          is that of a caseworker focusing on the process of placing beneficiaries. We elaborate on
          this on page 16 of the report with our follow-up interviews with discharge planners.

          Technical comments have also been included in the report. The full text of the agencies'
          comments are contained in Appendix B.




                                                                     3
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities     OEI-02-99-00340
                          TABLE                         OF             CONTENTS



                                                                                                                PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



FINDINGS

          Distinct Part Certification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Financial Screening . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Complaints . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          Overall Access . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21



APPENDICES

          A: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


          B: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





                                                                     4

The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities                              OEI-02-99-00340
                                       INTRODUCTION

PURPOSE

          To assess the extent to which financial screening and distinct part rules limit access to
          nursing facilities for Medicare and Medicaid beneficiaries.


BACKGROUND

          The Health Care Financing Administration (HCFA) requested that the Office of Inspector
          General (OIG) conduct a study about nursing home certification and admissions practices
          that may limit access to care for Medicaid and Medicare beneficiaries. These practices are
          distinct part certification and financial screening.

          In recent years, HCFA and the Office of Civil Rights (OCR) have been alerted by nursing
          home advocacy groups and beneficiaries that nursing homes may be using financial
          screening and distinct part rules to limit access for Medicare and Medicaid applicants.
          These groups have also been concerned that such limitations may have a disparate impact
          on minorities because they are less likely to have financial resources.

Medicare Program

          Title XVIII of the Social Security Act, entitled "Health Insurance for the Aged and
          Disabled," is commonly known as Medicare. Medicare provides insurance to people who
          are 65 years and older; people who are disabled; and people with permanent kidney
          failure.

          Medicare consists of two primary parts: Hospital Insurance (HI), also known as Part A,
          and Supplementary Medical Insurance (SMI), also known as Part B. Medicare Part A
          provides coverage of inpatient hospital care, skilled nursing facility care, home health
          services, and hospice care. Medicare Part B pays for the cost of physician services,
          outpatient hospital services, medical equipment and supplies, and other health services and
          supplies with a coinsurance.

          Skilled nursing facility (SNF) care is covered by Part A only if the care is generally within
          30 days of a hospitalization of 3 or more days, and is certified as medically necessary. The
          number of SNF days provided under Medicare is limited to 100 days per benefit period,
          with a co-payment required for days 21 through 100. Medicare Part A does not cover
          nursing facility care at all if the patient does not require skilled nursing or skilled
          rehabilitation services.
                                                                     5
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
Medicaid Program

          Medicaid was established under Title XIX of the Social Security Act and is the principle
          payer of nursing home care. The program is administered by the States, but is funded
          jointly by the States and the Federal Government. A State must present a State Medicaid
          plan to HCFA for approval in order to obtain Federal funding.

          Medicaid is designed to provide assistance for medical care to low-income people.
          Medicaid pays for nursing facility care for recipients who meet a State-determined poverty
          level, provided the nursing facility is certified for the program. The amount paid is
          determined by each State and covers room, board, and nursing care. Although it is
          voluntary, the majority of facilities participate in the Medicaid program.

Distinct Part Certification

          Facilities use distinct part certification to define the extent of their participation in the
          Medicaid or Medicare program. To do this, they can certify a specific number of their
          beds for either or both of these programs. Distinct part rules for Medicare and Medicaid
          differ somewhat and are described below.

          Medicare

          Under Medicare, a facility can certify a part or all of its facility for Medicare. The part has
          to be a physically identifiable unit of an institution such as a separate wing or a floor of the
          facility.

          The practice of distinct part has been used primarily for cost reporting purposes. Until
          recently, SNFs were reimbursed based on a retrospective, reasonable cost basis. Under
          this system, some nursing homes perceived a financial incentive to limit their program
          participation by establishing a distinct part. Specifically, facilities could track their costs
          for their distinct part and their non-distinct part separately. Their Medicare distinct part
          costs, which were likely to be higher than their non-distinct part costs because of the care
          required for skilled services, was a factor in determining a facility’s reimbursement.

          The Balanced Budget Act of 1997 (BBA97) changed SNF reimbursement to a prospective
          payment system (PPS). Under this system, SNFs are paid through “per diem, prospective,
          case-mix adjusted” payments. Each resident is categorized into one of 44 “resource
          utilization groups” and payment is based on the level of care that each resident requires.
          The system is currently being phased in over a 3 year transition period. Under this new
          system, distinct part is no longer a factor in determining the reimbursement rates for SNFs.




                                                                     6
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
          Prior to this year, SNFs were allowed to change the size of their distinct part as needed.
          As of January 1999, a SNF can change the size of its distinct part only once during its cost
          reporting year.

          Medicaid

          Distinct part rules for Medicaid vary by State. Some States require facilities that choose
          to participate in the Medicaid program to certify all of their beds for Medicaid. Other
          States mirror the Federal rule for Medicare in that individual facilities can determine the
          size of their distinct part.

          The use of Medicaid distinct part has been challenged. In April 1990, the District Court
          for the Middle District of Tennessee ruled, in Linton v. Tennessee Commissioner of
          Health and Environment, that Tennessee’s practice of allowing a nursing facility to certify
          some, but not all, of its beds for Medicaid participation violated both the Medicaid statute
          and Title VI of the Civil Rights Act of 1964. In July 1990, the court approved a plan that
          requires certification of all available licensed nursing home beds in facilities that participate
          in Medicaid. The plan also requires participating nursing facilities to admit residents on a
          first-come, first-serve basis and prohibits involuntary transfer or discharge based upon
          source of payment.

Financial Screening

          Facilities may request financial information from applicants as part of their admissions
          process. As part of the Omnibus Reconciliation Act of 1987 (OBRA ‘87), Congress
          passed the comprehensive Nursing Home Reform Act (PL 100-203) which provides some
          protections to Medicaid beneficiaries with respect to nursing home admission practices.
          The statutes and regulations, however, do not explicitly address whether nursing facilities
          may financially screen applicants and base admissions on their ability to pay. The law does
          not prohibit facilities from rejecting potential admissions, except to the extent that the
          practice violates the Civil Rights Act or Rehabilitation Act requirements, which prohibits
          discrimination against individuals with disabilities.

          The discussion about financial screening has centered around several requirements. These
          include provisions of the Social Security Act titled Equal Access to Quality Care --
          (1819(c)(4) and 1919 (c)(4)(A)) . They state that “a facility must establish and maintain
          identical policies and practices regarding transfer, discharge, and the provision of services
          under the State plan for all individuals regardless of source of payment” (42 CFR 483.12
          (b)(c)(1)). Additional requirements state:

                     (d) Admissions policy (1)The facility must- (i) Not require residents or potential
                     residents to waive their rights to Medicare or Medicaid; and (ii) the facility must
                     not require oral or written assurance that residents or potential residents are not

                                                                     7
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities    OEI-02-99-00340
                     eligible for, or will not apply for, Medicare or Medicaid benefits...(3) In the case of
                     a person eligible for Medicaid, a nursing facility must not charge, solicit, accept, or
                     receive, in addition to any amount otherwise required to be paid under the State
                     plan, any gift, money, donation, or other consideration as a precondition of
                     admission, expedited admission or continued stay in the facility.

General Concerns

          In recent years, some beneficiaries and advocacy groups have complained that facilities are
          using distinct part and financial screening to limit the number of Medicaid and Medicare
          beneficiaries they admit.

          Specifically, facilities allegedly use distinct part to inform applicants that they do not
          have a Medicaid or Medicare bed available and that the person can only be admitted if he
          or she pays privately. (Facilities prefer private pay residents largely because they can
          charge these patients higher rates than the amount they are reimbursed for patients under
          Medicare or Medicaid.) Reportedly, facilities may also use distinct part to limit access to
          residents who initially pay privately for care and later become eligible for Medicaid. In
          this situation, facilities may tell these beneficiaries that there is no Medicaid bed available
          and that they must move.

          Similarly, facilities allegedly use financial screening to deny access to Medicaid patients or
          persons who will be eligible for Medicaid in the near future. Reportedly, some facilities
          require applicants to submit information about their finances so that they can determine
          whether or not and for how long the person will be able to pay privately before they
          become eligible for Medicaid.

Nursing Home Industry Concerns

          The American Health Care Association and the American Association of Homes and
          Services for the Aging, the primary associations for nursing homes, have strongly objected
          to any limitations on financial screening and on their ability to have distinct parts. Their
          arguments hinge on the need for financial solvency and their desire to avoid additional
          regulation.

          Additionally, nursing homes have raised concerns about the new PPS reimbursement
          system for Medicare beneficiaries. They believe that the system is causing considerable
          stress on the industry. They claim that the prospective payment system is reducing
          payments to SNFs and may cause some SNFs to go out of business.




                                                                     8
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities     OEI-02-99-00340
Nursing Home Surveyors

          Nursing Home surveyors carry out the State survey and certification process for
          determining nursing home compliance with Federal standards. The HCFA contracts with
          States to perform routine facility surveys for Medicare and dually-certified nursing homes.
          The State is also responsible for surveying its Medicaid certified nursing homes.
          Surveyors perform unannounced visits to all facilities no later than every 15 months of the
          previous survey. During their visits, they review compliance with residents’ rights and
          audit residents’ assessments and plans of care for a sample of residents to determine
          accuracy and adequacy. When a facility fails to meet a specific requirement, they cite the
          facility for noncompliance.

Long Term Care Ombudsman Program

          The State Long Term Care Ombudsman Program is a federally mandated program
          established in 1978 in the Older Americans Act. The program began in response to
          concerns about poor quality of care in nursing homes. The program operates in all 50
          States, the District of Columbia, Puerto Rico, and in hundreds of local communities. The
          program has multiple functions, many of which are closely tied to ensuring residents’
          rights and quality care. These functions include:

                     <	         Identifying, investigating, and resolving complaints made on behalf of long
                                term care residents;
                     <          protecting the legal rights of residents;
                     <          advocating for systemic change;
                     <          providing information and consultation to residents and their families, and;
                     <          publicizing issues of importance to residents.

          In 1996, all programs began to collect and report data under the National Ombudsman
          Reporting System (NORS). This system includes information about complaints made on
          behalf of residents about residents’ rights, resident care, quality of life, administration, and
          other complaints not against the facility.


METHODOLOGY

          This inspection is based on information gathered from several different sources. As
          described below, we conducted interviews with a broad range of stakeholders who have
          experience with beneficiary access to nursing homes. We also analyzed data from the
          Online Survey Certification and Reporting System (OSCAR) and data about complaints
          from several different sources.



                                                                     9
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities      OEI-02-99-00340
Interviews

          First, we interviewed the State Long Term Care Ombudsman from each State (except
          Alaska who was not available at the time) and the District of Columbia to identify any
          complaints they have received about financial screening and distinct part practices. We
          also asked about the extent to which access to nursing home care is a problem in their
          State.

          Second, we contacted State Medicaid officials in each State and the District of Columbia
          to obtain information about their distinct part requirements and policies that promote
          nursing home access. We also discussed the extent to which financial screening and
          distinct part may limit access for Medicaid beneficiaries in their State.

          Third, we conducted interviews with 180 randomly selected hospital discharge planners in
          eight States. We asked them about their experiences with placing Medicare and Medicaid
          patients in nursing homes and about any reasons why access to nursing home care may be
          a problem in their area. Results from these interviews are also reported in a related study
          entitled, Early Effects of the Prospective Payment System on Access to Skilled Nursing
          Facilities OEI-02-99-00400.

          Fourth, we interviewed 64 nursing home administrators in eight States. We asked them
          about access to nursing homes and about how they make decisions concerning which
          types of patients to admit. Results from these interviews are reported in another study
          entitled, Early Effects of the Prospective Payment System on Access to Skilled Nursing
          Facilities: Nursing Home Administrators’ Perspectives OEI-02-99-00401.

OSCAR Data

          The Online Survey Certification and Reporting System (OSCAR) is the system HCFA
          uses in its survey of Medicare and Medicaid providers to monitor State agency and
          provider performance. We analyzed OSCAR data from the most recent survey and the
          Provider of Services (POS) File to determine the number of nursing home beds and
          nursing home occupancy rates in each State. We also analyzed data about two
          deficiencies concerning admissions and equal quality of care that nursing home surveyors
          may cite in their annual review of each nursing facility. These two deficiencies, identified
          as deficiency tags 207 and 208, reflect the requirements in the Nursing Home Reform Act
          discussed earlier.

Complaint Data

          We identified the key agencies that beneficiaries and others may contact about problems
          related to access to nursing home care. We asked these agencies about any complaints
          related to financial screening and distinct part rules. In addition, we analyzed the
                                                                    10
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
          National Ombudsman Reporting System (NORS) for FY 1997. (Note that FY 1998 data
          were not available.) We also asked each ombudsman about any complaints specifically
          related to financial screening and distinct part that they received in the past three years.
          These data were annualized to estimate the average number of complaints received in a
          year.

Sample Selection

          We selected a two-stage stratified cluster sample of hospital discharge planners and
          nursing home administrators in eight States. The first stage of sampling was a stratified
          sample of eight States as shown below.



             Strata 1          The four States with the most SNF beds (CA, NY, IL, TX)
             Strata 2          Two of the four States currently using a Medicaid demonstration
                               prospective payment system (MS, ME)
             Strata 3          Two States randomly selected from the remaining 40 contiguous States
                               (VA, CT)


          At the second stage, we selected a simple random sample of eight nursing homes that had
          greater than 60 beds within each of these States. We also selected a simple random
          sample of 25 hospitals within each of these States. We achieved a 100 percent response
          rate for nursing home administrators and a 90 percent response rate for discharge
          planners. Data for both samples were weighted and projected to the universe. Note that
          the estimates based on these samples are associated with large confidence intervals and
          should be interpreted with caution. Appendix A provides the confidence intervals for the
          key questions.

          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




                                                                    11
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
                                         F I N D I N G S

DISTINCT PART CERTIFICATION

Most States allow distinct part certification in nursing homes

          According to Medicaid officials, 29 States allow nursing homes to certify a portion of
          their beds for Medicaid. Three of these States actually specify what percentage of a
          nursing home’s beds that must be certified for Medicaid. The remaining 22 States do not
          allow Medicaid distinct part certification. These States have a “one bed, all beds” policy
          that requires nursing homes that participate in Medicaid to certify all of their beds for
          Medicaid.

          Regarding Medicare, all but one State allow nursing homes to certify a portion of their
          beds for Medicare. In the remaining State, all beds must be certified for both Medicare
          and Medicaid.

Overall, distinct part rules do not appear to limit access for Medicaid or Medicare
beneficiaries

          Irrespective of the rules about Medicaid distinct part, only about 875 facilities or 5 percent
          of 17,317 facilities nationwide appear to have a Medicaid distinct part. Further, as shown
          in Figure 1, about 97 percent of all beds that are certified nationwide are for Medicaid. At
          the same time, about 68 percent of nursing home residents are Medicaid beneficiaries. It
          is important to note, however, that even if a bed is certified for Medicaid, the facility does
          not have to fill it with a Medicaid beneficiary.

          Regarding Medicare, according to 1998 OSCAR data, 8971 facilities or about half of all
          facilities nationwide have a Medicare distinct part and about 42 percent of all certified
          beds are for Medicare. Note that only about 9 percent of nursing home residents are
          Medicare beneficiaries.

          As shown, many beds (38 percent) are actually certified for both Medicare and Medicaid.
          The number of these beds has also increased from 1996 to 1998 by 7 percent. Medicaid
          officials from 39 States confirm that it is “very common” for nursing homes in their State
          to certify their beds for both programs and several note that facilities are increasingly
          certifying their beds in this manner.




                                                                    12
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
                                                                              Source: Provider of Services File, 1998




          In addition, no Medicaid officials report that distinct part limits Medicaid beneficiaries’
          access to nursing homes in their State to a large extent. (See Table 1.) Some explain that
          due to their State’s “one-bed all-beds” policy, distinct part does not affect access. Others
          note that occupancy rates are low and therefore nursing homes do not refuse applicants in
          order to keep their beds filled. Also, Medicaid officials in States that allow distinct part
          for Medicaid are less likely to report that overall access is a problem for Medicaid
          beneficiaries than those in States that do not allow distinct part.

          Ombudsmen generally concur with Medicaid officials but some express concerns.
          Ombudsmen in seven States believe that distinct part limits access for Medicaid
          beneficiaries to a large extent. Another 18 ombudsmen say that distinct part limits access
          to some extent. A few mention instances where a family was told that a nursing home did
          not have a Medicaid certified bed available when that may not have been the case.




                                                                    13
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities                           OEI-02-99-00340
                                                       Table 1

                                          Effect of Distinct Part on Access



                  To what extent does distinct part limit Medicaid beneficiaries’ access to nursing
                  homes?

                                                  Large               Somewhat              Not at all     Don’t know

                   Medicaid Officials                0                      5                  43                3

                   Ombudsmen                         7                      18                 20                5


                                                                                                         Source: OEI Surveys, 1999


          Ombudsmen are less likely to report that distinct part practices are a problem for Medicare
          beneficiaries. Specifically, only two ombudsmen report that distinct part limits access for
          Medicare beneficiaries to a large extent. Another 21 ombudsmen say that it limits access
          to some extent. Some ombudsmen report that nursing homes want Medicare beneficiaries
          and others note that they do not hear complaints about Medicare beneficiaries being
          denied access because a Medicare bed is not available.

          Finally, when asked their opinions, most Medicaid officials (35) believe that requiring
          nursing facilities to certify all of their beds for both Medicare and Medicaid would not
          have an effect on access for Medicaid beneficiaries in their State. Similarly, the majority
          of nursing home administrators report that it would not affect the number of Medicare or
          Medicaid patients that they would admit. In contrast, ombudsmen generally believe that
          this requirement would increase access for Medicare and for Medicaid beneficiaries.


FINANCIAL SCREENING

Nursing facilities commonly request financial information as part of the
admissions process

          State ombudsmen and Medicaid officials report that nursing homes routinely ask for
          financial information as part of the admissions process. Specifically, 41 ombudsmen and
          40 Medicaid officials note that nursing homes do this “very often” or “somewhat often.”
          Most nursing home administrators (75 percent) confirm that they ask for financial
          information when a person applies to their facility, most often about a person’s assets,
          income, and/or insurance. Some note their facility requires an advance deposit for
          applicants who plan to pay privately.

                                                                    14
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities                        OEI-02-99-00340
When financial screening occurs, it primarily affects access for Medicaid
beneficiaries

          No Medicaid officials and only eight ombudsmen report that Medicaid beneficiaries are
          denied access to a nursing home “very often” because of financial screening. (See Table
          2.) Eleven ombudsmen, however, report Medicaid beneficiaries are denied access
          “somewhat often” because of financial screening. They commonly explain that nursing
          facilities want to maximize their reimbursement and clearly prefer private pay and
          Medicare applicants. Regarding Medicare beneficiaries, only one ombudsman believes
          that these beneficiaries are denied access “very often” because of financial screening.

                                                    Table 2

                                   Effect of Financial Screening on Access



                 How often are Medicaid beneficiaries denied access to a nursing home because of
                 financial screening?

                  Respondent                  Very Often         Somewhat          Not Often   Never        Don’t
                                                                   Often                                    Know

                  Medicaid Officials*                0                 2                30      12            7

                  Ombudsmen*                         8                11                19      10            2

                 How often do nursing homes refuse patients because of financial reasons?

                  Discharge                       33%                37%               23%      7%           0%

                  Planners

                                                                                               Source: OEI Surveys, 1999
                           * Responses from Medicaid Officials and Ombudsmen are in terms of their counts, not percentages.


          Ombudsmen in 15 States further note that it is at least somewhat common for nursing
          homes in their State to require a person to pay privately for a specified period of time in
          order to be admitted. According to their experience, a person may be required to pay for
          a month or more which is inconsistent with the current law.

          In contrast, discharge planners believe that financial screening is a common problem.
          One-third say that nursing homes refuse patients “very often” because of financial reasons.
          Another 37 percent say that this happens “somewhat often.” Some note that patients with
          complex medical conditions, patients without any insurance, and Medicaid patients are
          most likely to be denied access because of financial screening.



                                                                    15
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities                    OEI-02-99-00340
          To understand these issues further, we contacted the discharge planners (15) who say that
          nursing homes refuse patients “very often” because of financial reasons and that it is “very
          difficult” to place Medicaid patients in nursing homes. Seven respondents report that they
          can place all of their patients in a nursing home. Another 3 say they cannot place up to 10
          percent, whereas 4 cannot place between 25 and 88 percent of their Medicaid patients.
          Most note that these patients remain in the hospital for long periods of time. In some
          cases, they may eventually be placed in a nursing home or in other types of care. They
          also report that the patient’s medical condition or low reimbursement under Medicaid is
          the primary reason they have difficulty placing these patients.

          Nursing home administrators generally believe that financial screening is not a large
          problem. The majority of nursing home administrators (85 percent) assert that they do not
          look at payment source to decide the proportion of Medicare, Medicaid, and private pay
          patients to admit. Rather, many say they take whoever applies or make decisions based on
          bed availability or whether they can meet a patient’s needs. Others explain that they try to
          admit as many private pay patients as possible.

          When asked their opinions about financial screening rules, most ombudsmen and many
          Medicaid officials believe there should be at least some limitations on financial screening.
          A typical comment is that financial screening should not be used to “shop” for residents.
          Some ombudsmen note that it is important for nursing homes to be able to screen
          residents so they can remain financially solvent and be able to provide quality care to all.

          In contrast, about two-thirds of nursing home administrators believe there should not be
          any limits placed on financial screening. They commonly say they need to ask for financial
          information so they can know how their facility will be paid. Some specifically point out
          that they are operating a business and need this information to protect themselves
          financially. Others say that they use the information to help plan a resident’s stay or to
          assist them in applying for Medicaid when they become eligible.


COMPLAINTS

Oversight agencies receive relatively few complaints about financial screening or
distinct part practices

          Beneficiaries and others may contact certain agencies including the Office of Civil Rights
          (OCR), the OIG Hotline, and/or the Ombudsman Program about problems related to
          access to nursing home care. Additionally, nursing home surveyors may cite facilities for
          admissions practices that do not assure equal access to care and for certain financial
          screening practices. The available data are presented below.



                                                                    16
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
          The Office of Civil Rights. Staff at OCR did not find any complaints in which financial
          screening or distinct part was an issue in FY 98 or FY 99. They note that three
          complaints remain open from the early 1990's which allege that certain Michigan area
          nursing homes use distinct part rules and financial screening to limit access for Medicaid
          beneficiaries and minorities.

          The Office of Inspector General Hotline. Staff identified only one complaint related to
          payment source that was received by the OIG Hotline between May 1995 and September
          1999. This complaint alleges that a nursing home asked Medicaid residents to leave so
          that it could admit private pay residents.
.
          Nursing home surveyors. Nursing home surveyors rarely cite nursing homes for
          problems related to equal access to care or financial screening. According to OSCAR
          data for the most recent survey, surveyors gave a total of 59 citations related to these
          issues. These citations represent less than one percent of all citations given in that time
          period.

          Ombudsmen. According to 1997 NORS data, ombudsmen report a total of 1,262
          complaints in categories that may include issues related to distinct part and financial
          screening practices. Together, these complaints represent less than one percent of all
          complaints reported by ombudsmen in that year.

          When asked to look at their data more specifically, 17 ombudsmen report they have not
          received any complaints about financial screening and 18 ombudsmen report that they
          have not received any complaints about distinct part practices. Ombudsmen from 24
          States estimate receiving an average total of 339 complaints related to financial screening
          per year. The majority (71 percent) of these complaints come from 7 States. Regarding
          distinct part practices, ombudsmen in 20 States estimate receiving an average total of 334
          complaints per year. Similarly, about 76 percent of these complaints are from 6 States.
          Note that not all ombudsmen were able to obtain these data.

          Ombudsmen explain that these complaints are primarily about nursing homes denying
          access to Medicaid beneficiaries or those who would become Medicaid eligible in the near
          future. Some involve facilities requesting extensive financial information from patients or
          their family members, or asking residents to pay a certain amount prior to admission.
          Several ombudsmen also mention complaints about beds not being available, possibly
          because of distinct part practices.

          In addition, 23 State ombudsmen estimate an average total of 734 complaints per year
          about issues related to access to care. These complaints primarily involve residents being
          transferred from one bed to another when they become eligible for Medicaid. Others are
          about residents being discharged either to a hospital or for a psychological evaluation so
          that the nursing home could fill the bed with a Medicare or private pay resident.
                                                                    17
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
          At the same time, many ombudsmen believe that problems caused by financial screening
          and distinct part are larger than what is actually reported. Some note that people may not
          complain or be aware that they are being denied access because of financial screening or
          distinct part rules. They also mention that many people may not know to notify the
          Ombudsmen program if they have this type of problem.


OVERALL ACCESS

          The effects of distinct part rules and financial screening must be viewed within the broader
          context of overall access to nursing home care. Overall access is primarily affected by the
          supply of and demand for nursing home beds which can be measured in terms of
          occupancy rates.

Occupancy rates are low and most respondents report that overall access to
nursing home care is not a major problem

          According to OSCAR data, occupancy rates are generally low. Specifically, the average
          occupancy rate for all certified nursing facilities nationwide is 82 percent. State
          occupancy rates range from 68 percent in Arkansas to 95 percent in New York. Many
          ombudsmen and Medicaid officials confirm that nursing homes are experiencing low
          occupancy rates. Some explain that this is due to more people obtaining care in
          alternative settings such as assisted living facilities or at home. Several also note that
          some nursing homes are eager to accept anyone, or prefer some guarantor of payment to
          having a vacant bed.

          Further, respondents report that overall access to nursing homes is not a major problem
          for Medicaid beneficiaries. Specifically, no Medicaid officials say that access to nursing
          home care for Medicaid beneficiaries is a large problem. (See Table 3.) Nursing home
          administrators generally agree. Only 6 percent report that access to nursing home care for
          Medicaid patients is a large problem in their area. Medicaid officials and nursing home
          administrators commonly explain that enough beds are available to meet demand. Others
          note that access is somewhat of a problem for persons with complex care needs or with
          certain medical conditions or in some areas of their State.

          In contrast, ombudsmen from 11 States report that access for Medicaid beneficiaries is a
          large problem in their State. They point out that facilities prefer private pay or Medicare
          patients. Similarly, about one-third of discharge planners report that it is “very difficult”
          to place Medicaid patients in nursing homes, mainly because Medicaid reimbursement is
          low.




                                                                    18
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
                                                   Table 3

                                  Overall Access for Medicaid Beneficiaries





             To what extent is access to nursing home care a problem for Medicaid
             beneficiaries?

                                              A large           Somewhat of a               Not at all a    Don’t know
                                              problem             problem                    problem

               Medicaid Officials*                 0                     19                     30                 2

               Ombudsmen*                         11                     24                     15                 0



             How difficult it is to place Medicaid patients in nursing homes?

                                              Very difficult             Somewhat difficult           Not at all difficult
               Discharge Planners                   35%                          42%                         23%


                                                                                            Source: OEI Surveys, 1999
                         * Responses from Medicaid Officials and Ombudsmen are in terms of their counts, not percentages.




          Regarding Medicare, fewer respondents report that access to nursing home care is a
          problem. Only five ombudsmen report that access for Medicare beneficiaries is a large
          problem in their State. (See Table 4.) Many observe that occupancy rates are low or that
          there are enough beds. Some note, however, that the nursing home prospective payment
          system has created some difficulties or that access problems exist for patients with
          complex medical needs or in some areas in their State.

          Discharge planners and nursing home administrators generally concur. Only one percent
          of discharge planners report that it is “very difficult” to place short-term Medicare
          patients. They point out that nursing homes generally want Medicare patients because
          they have short stays or because their reimbursement for these patients is higher than it is
          under Medicaid. Similarly, about 6 percent of nursing home administrators report that
          access to nursing home care for Medicare patients is a large problem in their area.




                                                                    19
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities                              OEI-02-99-00340
                                                   Table 4

                                  Overall access for Medicare Beneficiaries





               To what extent is access to nursing home care a problem for Medicare
               beneficiaries?

                                                A large              Somewhat               Not at all
                                                problem             of a problem            a problem    Don’t Know
                 Ombudsmen*                          5                    26                   18             1



               How difficult it is to place short-term Medicare patients in nursing homes?

                                                                     Somewhat               Not at all
                                             Very difficult           difficult             difficult    Don’t Know
                 Discharge                         1%                    32%                  66%            1%
                 Planners

                                                                                                Source: OEI Surveys, 1999
                                                   * Responses from Ombudsmen are in terms of their counts, not percentages.



          We also found that many States (23) have specific policies to promote nursing home
          access. According to Medicaid officials, 13 States have occupancy incentives in which the
          State reimburses nursing homes at a higher Medicaid rate when their occupancy reaches a
          certain level, such as 95 percent. Five States mandate that all nursing homes use a single
          waiting list, or a first-come, first-served policy to assure access for Medicaid recipients.
          Two States have a rate equalization policy that prohibits a facility from charging private-
          pay patients a higher rate than it is paid under Medicaid.

          Some States have other policies such as bed-hold policies that specify certain conditions in
          which a nursing home cannot deny readmission to a beneficiary who leaves a facility for a
          short amount of time. A few States also have a resident bill of rights that prohibits
          discrimination based on payment source. The majority of Medicaid officials in States that
          have policies believe that the policies are “somewhat” or “very” effective at assuring
          access.




                                                                    20
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities                      OEI-02-99-00340
                                           CONCLUSION

          Distinct part rules do not appear to limit access for Medicaid or Medicare beneficiaries.
          Financial screening may cause access problems for some Medicaid beneficiaries, but these
          problems do not appear to be widespread. At this time, any potential effects of distinct
          part rules and financial screening are being tempered by a bed supply that generally
          exceeds demand and by State initiatives that promote access. The dynamics of the nursing
          home bed supply, however, could change in the future.

          The Department can respond to these findings with a number of options.

          <	         It can do nothing new at this time and continue to monitor access and changes in
                     nursing home occupancy rates, as well as the factors that affect nursing home bed
                     supply and demand;

          <	         It can strengthen its oversight efforts by alerting survey and certification and
                     ombudsman staff to potential abuses and by using public service announcements to
                     alert consumers to the current law and common financial screening practices;

          <	         It can issue new regulations or legislation that eliminates Medicare distinct part
                     and/or prohibits financial screening; or

          <	         It can study the effects on access of the practices adopted by 23 States to promote
                     access to nursing facilities.


AGENCY COMMENTS

          We received comments on the draft report from the Health Care Financing Administration
          (HCFA), the Administration on Aging, and the Assistant Secretary for Planning and
          Evaluation (ASPE). The HCFA agreed with our recommendation to strengthen oversight
          and listed a number of steps they were taking to implement that recommendation.
          Additionally, at ASPE’s request we have forwarded a memorandum to HCFA containing a
          State-specific discussion of access. The ASPE also asked for a discussion of the variance
          in responses listed in Table 2. We believe the variance is due to perspective. While the
          State officials take a policy or oversight view of the problem, the discharge planners' view
          is that of a caseworker focusing on the process of placing beneficiaries. We elaborate on
          this on page 16 of the report with our follow-up interviews with discharge planners.

          Technical comments have also been included in the report. The full text of the agencies'
          comments are contained in Appendix B.


                                                                    21
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities    OEI-02-99-00340
                                                                                                       APPENDIX A



                  Confidence Intervals for Discharge Planners 

                      and Nursing Home Administrators 


We calculated confidence intervals for key findings for discharge planners and nursing home
administrators. The point estimate and 95% confidence interval are given for each of the
following:



                                                                                             POINT     CONFIDENCE
                      DISCHARGE PLANNERS                                                    ESTIMATE    INTERVAL
            In your opinion, how often do nursing homes
            refuse patients because of financial reasons?

                                  Very often                                                  33%          + 3.7

                                  Somewhat often                                              37%         + 16.0

                                  Not often                                                   23%         + 18.8

                                  Never                                                       7%           + 2.2


          Currently, how difficult is it to place Medicaid
          patients? Would you say:

                                  Very difficult                                              35%         + 15.8

                                  Somewhat difficult                                          42%          + 8.4

                                  Not at all difficult                                        23%          + 8.5




                                                                    22
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities                 OEI-02-99-00340
                                                                                             POINT     CONFIDENCE
           DISCHARGE PLANNERS (continued)                                                   ESTIMATE    INTERVAL
         Currently, how difficult is it to place short-term
         Medicare patients into nursing homes? Would you
         say:

                                  Very difficult                                              1%          + 1.3

                                  Somewhat difficult                                          32%         + 6.6

                                  Not at all difficult                                        66%         + 4.3




                                                                                             POINT     CONFIDENCE
            NURSING HOME ADMINISTRATORS                                                     ESTIMATE    INTERVAL
          In your opinion, to what extent is access to nursing
          home care a problem for Medicaid patients in your
          area? Would you say it is:

                                  A large problem                                             6%          + 8.7

                                  Somewhat of a problem                                       33%         + 16.9

                                  Not at all a problem                                        62%         + 25.2


        In your opinion, to what extent is access to nursing
        home care a problem for Medicare patients in your
        area? Would you say it is:

                                  A large problem                                             6%          + 8.8

                                  Somewhat of a problem                                       26%         + 34.5

                                  Not at all a problem                                        68%         + 26.1




                                                                    23
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities                 OEI-02-99-00340
                                                                                            APPENDIX B



                                                         Comments





                                                                    24

The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities      OEI-02-99-00340
                                                                    25
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
                                                                    26
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
                                                                    27
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
                                                                    28
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
                                                                    29
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
                                                                    30
The Effect of Financial Screening and Distinct Part Rules on Access to Nursing Facilities   OEI-02-99-00340
